CERTIFICATE OF WORD COUNT
NO. 19-114
Douglas Ciolek,
Petitioner(s),
v.
State of New Jersey,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the STATE OF NEW JERSEY
BRIEF IN OPPOSITION contains 5937 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
August 22, 2019

SCP Tracking: McNamara,

Jr.-Morris County Prosecutor’s Office-Cover Orange

